<html>
<title> - THE STATE DEPARTMENT 2013 TRAFFICKING IN PERSONS REPORT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
        THE STATE DEPARTMENT 2013 TRAFFICKING IN PERSONS REPORT

=======================================================================


                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,

                        GLOBAL HUMAN RIGHTS, AND

                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 11, 2013

                               __________

                           Serial No. 113-80

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______





                  U.S. GOVERNMENT PRINTING OFFICE
81-872                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina



                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable Luis CdeBaca, Ambassador-at-Large, Office to 
  Monitor and Combat Trafficking in Persons, U.S. Department of 
  State..........................................................     9

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Luis CdeBaca: Prepared statement...................    12

                                APPENDIX

Hearing notice...................................................    38
Hearing minutes..................................................    39


        THE STATE DEPARTMENT 2013 TRAFFICKING IN PERSONS REPORT

                              ----------                              


                        THURSDAY, JULY 11, 2013

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 11 o'clock a. 
m., in room 2172 Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order. Good 
morning, everybody and thank you for joining us today for the 
second in a series of hearings on the Trafficking in Persons 
Report and U.S. efforts to combat human trafficking. In April, 
our subcommittee took a close look at the records of six 
countries which had exhausted all of their allotted time on the 
Tier II Watch list and must, by law, be moved to Tier II or 
Tier III in this year's Trafficking in Persons Report. One of 
those who testified, Ambassador CdeBaca's predecessor in the 
job was Mark Lagon and we heard very, very insightful 
testimony, from him and others, about why countries including 
China, Russia, and Uzbekistan ought to have been put on Tier 
III. An upgrade to Tier II would have been completely unmerited 
and would have damaged the credibility of the Trafficking in 
Persons Report.
    The TIP Report was released late last month, and I was 
pleased to see that it is one of the best and that it 
faithfully reported and graded the records of China, Russia, 
and Uzbekistan, which had been skirting accountability for far 
too long. Now, the administration is faced with next steps 
including what sanctions might be imposed to press these 
nations to reform.
    When I wrote the law, the Trafficking Victims Protection 
Act of 2000 that created not only this report, but also the 
Office to Monitor and Combat Trafficking in Persons and 
Ambassador Luis CdeBaca's position in the U.S. Department of 
State, and several other provisions to prevent both sex and 
labor trafficking, protect victims, and prosecute traffickers, 
it was sincerely hoped that this report would become the 
international gold standard and primary means of 
antitrafficking accountability around the world. I am happy to 
say it has. From the halls of Parliaments globally to police 
stations in remote corners of the world, this report is today 
being used to focus antitrafficking work--a search light on the 
work that is occurring or not occurring in some 186 countries.
    But with the power of this report to improve situations 
came the risk that it could also be used to whitewash the truth 
about a country's trafficking record. It could fail to report 
accurately and inadvertently give cover to negligent or 
complicit governments.
    I am very happy to say that the 2013 report is one of the 
best ever produced. Special thanks are especially in order for 
Ambassador Luis CdeBaca and his very dedicated staff for 
faithfully highlighting the good, while exposing the bad and 
the ugly. The TIP Report is faithful and reflects the hard, 
meticulous work and leadership of the Office to Monitor and 
Combat Trafficking in Persons. This office not only analyzes 
whether a country is complying with the minimum standards for 
the elimination of human trafficking, but also sets specific 
recommendations as to how that country can move forward.
    With this report, countries should have no question 
whatsoever about where they rank, as well as how they can 
improve. Many countries have publicly or privately credited the 
report as the impetus for real improvement in their trafficking 
laws and policies. Since the TIP Report's inception, more than 
130 countries have enacted antitrafficking laws, and many 
countries have taken other steps required to significantly 
raise their tier earnings.
    I just returned from Istanbul on Saturday from the OSCE 
Parliamentary Assembly and offered a resolution there on 
trafficking and specially on some of the best practices that 
Ambassador CdeBaca and I have been talking about where flight 
attendants can be trained as to how to spot a trafficking as it 
occurs, while victims are being moved and transported. Not only 
did it pass unanimously, but many of the heads of delegation 
have made it very clear that they are going to go back to their 
capitals and take up that idea.
    I also talked to many of the heads of delegation and 
members of Parliament about the TIP Report. Many of them knew 
about it, some of them were unhappy that our country takes it 
upon itself to hold them accountable, but as I told each and 
every one of them, not only do we rate ourselves, but even more 
importantly, borders are no excuse for human rights abuse. And 
if we really want to end modern-day slavery, what is contained 
in this all-important book, helps them, and helps all of us, as 
a guide to help improve our efforts.
    This year, China, Russia, and Uzbekistan finally have to 
confront their records. The report tells it like it is. For 
instance, the TIP Report states that, and I quote in pertinent 
part:

          ``The Chinese Government's birth limitation policy 
        and a cultural preference for sons, created a skewed 
        sex ratio of 118 boys to 100 girls in China, which 
        served as a key source of demand for the trafficking of 
        foreign women as brides for Chinese men and forced 
        prostitution. Women from Burma, Malaysia, Vietnam, and 
        Mongolia are transported to China after being recruited 
        through marriage brokers or fraudulent employment 
        offers where they are subsequently subjected to forced 
        prostitution or forced labor. Traffickers recruited 
        girls and young women, often rural areas of China, 
        using a combination of fraudulent job offers, 
        imposition of large travel fees, and threats of 
        physical or financial harm to obtain and maintain their 
        service in prostitution.''

    Because tens of millions of girls have been systematically 
killed by sex-selection-abortion over the past three decades, 
resulting in an unprecedented number of ``missing'' women and 
girls in China, demand for prostitutes and so-called ``brides'' 
is absolutely exploding in China. And it is not getting any 
better any time soon.
    As a direct consequence of the barbaric one-child-per-
couple policy in effect since 1979, China has become the global 
magnet for sex traffickers. Women and young girls have been and 
are today being reduced to commodities and coerced into 
prostitution. Without serious and sustained action by Beijing 
and the international community, it is only going to get worse.
    The TIP Report also makes clear that ``Chinese law remains 
inadequate to combat all forms of trafficking. and the 
Government of China's efforts to protect trafficking victims 
remained inadequate.'' In addition, China's ``Government 
continued to perpetuate human trafficking in at least 320 
state-run institutions.''
    I, along with Congressman Frank Wolf, visited one of those 
state-run institutions in the early 1990s, Beijing Prison #1. 
We were shocked to observe the horrific conditions imposed on 
inmates including more than 40 Tiananmen Square human rights 
activists. The report makes clear that state-sponsored forced 
labor is part of a systemic form of repression known as 
``reeducation through labor. The government reportedly profits 
from this forced labor, and many prisoners and detainees . . . 
.''
    With this report, we have done right by the millions of 
trafficking victims in China. With this report, we are holding 
China to account for its complicity in profits off of modern-
day slavery. It is my sincere hope that the truth will turn the 
tide in China.
    However, I am disappointed and I would say this with all 
respect to my friend, Ambassador CdeBaca, we were disappointed, 
many of us, to see that Vietnam was not downgraded to the Tier 
II Watch List or Tier III. Vietnam's labor export companies, 
most of which are owned by or affiliated with the Government of 
Vietnam, have been engaged in practices that lead to debt 
bondage and forced labor. The Government of Vietnam has yet to 
pay millions of dollars in damages to Vietnamese labor 
trafficking victims found in the United States and its 
territories, as ordered by U.S. courts.
    Vietnamese trafficking victims in other countries report 
that the Government of Vietnam sides with the traffickers to 
keep them in bondage when the victims seek help. Other reports 
indicate that the Vietnamese Embassy in Russia, and we had a 
hearing on this, is actively working with organized crime to 
enslave Vietnamese nationals in sweatshops and brothels, and 
the TIP Report itself notes reports that officials at border 
crossings and checkpoints accept bribes from traffickers.
    Some notable trends in the 2013 report include: Tier I, 30 
countries as compared with 33 in 2012; Tier II, 92 countries as 
compared with 93 in 2012; Tier II Watch List, 44 countries as 
compared with 42 in 2012; and Tier III, 20 countries as 
compared with 17 in 2012.
    The Africa region increased its prosecutions by 45 percent. 
According to the report, labor prosecutions by 500 percent, its 
convictions by 16 percent, and its victim identification by 13 
percent. The African region, however, is the region with the 
greatest number of Tier III countries, and does not contain any 
Tier I countries.
    The East Asia and Pacific region saw a 23-percent decrease 
in prosecutions, but a 28-percent increase in convictions and a 
slight increase in the number of victims who were identified. 
The number of victims identified remains alarmingly low, 
however, at 8,521 in a region where the International Labor 
Organization believes there are nearly 12 million people 
enslaved. The number of labor convictions, 103, also remains 
extremely low in the region of the world most plagued by labor 
trafficking.
    The European region saw a slight drop in prosecutions, but 
a 13-percent increase in convictions and a 17-percent increase 
in victims identified. I would note parenthetically that that 
in 2008 in the European space, some 54,000 victims have been 
identified. So there is a robust effort underway there to find, 
identify, and help victims.
    The Near East region saw a 19-percent increase in 
prosecutions in 2012, and more than doubled its conviction 
rate, largely due to efforts in the United Arab Emirates. The 
Near East region also more than doubled its number of victims 
identified. This region has the greatest relative proportion, 
however, of Tier III countries.
    The South and Central Asia region saw slight, but 
appreciable increases in its prosecutions, some 7 percent; 
convictions, 5 percent; and number of victims identified at 13 
percent. India, one of the first countries to be moved off of 
the Tier II Watch List under the TVPRA of 2008 2-year rule, 
remained a questionable Tier II ranking for a second year. Out 
of nearly 2 billion people, only 4,415 victims were identified.
    Finally, the Western Hemisphere region, in which the United 
States, of course, is included, prosecutions increased by 72 
percent, and convictions increased by 44 percent, including a 
650-percent increase in labor trafficking convictions. However, 
victim identification, sadly, decreased by 15 percent. Eight 
countries in this region improved their antitrafficking laws in 
2012. Cuba is the only country in the region to be Tier III. 
Colombia and Nicaragua share Tier I status with the United 
States and with Canada.
    I look forward to the testimony by our very distinguished 
witness, Ambassador Luis CdeBaca, but before that will yield to 
my friend and colleague, the ranking member, Ms. Bass.
    Ms. Bass. Mr. Chairman, once again, I want to thank you for 
your on-going efforts to combat human trafficking. I always 
appreciate your focus and your steadfast commitment and I look 
forward to continuing to work with you to develop smart 
policies that protect victims and prevent human trafficking 
globally and domestically.
    I also want to express my deep gratitude to Ambassador 
CdeBaca. And I especially appreciate your inclusion about what 
is going on in the United States in the report. I know that is 
always there, but you had a slightly different focus this time.
    The United Nations defines trafficking in persons as the 
recruitment, transportation, transfer, harboring, or receipt of 
persons. While we hold this hearing annually, this definition 
of trafficking reminds us that efforts to end human trafficking 
are needed more today than ever before. The International Labor 
Organization estimates that human trafficking generates well 
over $30 billion annually, a figure that rivals some nation's 
gross domestic product. The 2013 TIP Report clearly indicates 
that far too few victims have been identified and my fear is 
that if we don't quickly identify more victims they will be 
lost to organized crime, pimps, johns, and others that care 
little about their well-being or physical, mental, or emotional 
safety.
    With social scientists estimating that 27 million women, 
children, and men are trafficked, the fact that only 40,000 
have been identified is woefully inadequate and frankly 
disturbing. We can and must do more to assist nations 
everywhere with helping identify and protect victims and not 
treating them as criminals.
    I am pleased that this year's TIP Report is themed Victim 
Identification.
    Ambassador, once again, I commend your leadership on this 
issue, working through the interagencies as well through your 
direct foreign government engagement to ensure that a 
comprehensive response to fight trafficking includes thorough 
enforcement, alongside compassionate care for vulnerable 
communities including runaways, foster youth, disabled, 
stateless, ethnic minorities, and migrants.
    As I look at this year's tier ranking map of Africa, there 
appears to be progress in nations like Madagascar, Sierra 
Leone, Senegal, and the Republic of Congo, yet other nations 
have not progressed and have fallen backwards. The good news 
however, is that prosecutions, convictions, victim 
identifications, and new legislation across the continent 
appear to be at an all-time high.
    I am eager to hear what new efforts can help increase focus 
on issues of child soldiers, sexual exploitation, as well as 
forced servitude and labor throughout Africa. The TIP Office 
should be congratulated for efforts to work with the South 
African Government to advocate for and advise on passage of 
legislation that prohibits all forms of trafficking in persons. 
I am pleased that the TIP Report continues also to evaluate the 
United States' efforts to address human trafficking. In this 
section, the TIP Report highlights the critical needs to 
strengthen efforts to serve and protect domestic populations 
vulnerable to trafficking including the nearly \1/2\ million 
children in foster care. Sadly, the instability and traumatic 
experience of foster children make them particularly 
susceptible to commercial exploitation. Worse still, recent 
headlines indicate that pimps are now targeting foster youth 
group homes as hubs to recruit vulnerable girls right here in 
this city as well as around the country.
    Across the country, data shows that between 65 and 85 
percent of domestic minor trafficking victims are current or 
former foster youth. In Los Angeles County alone, my home 
county, hundreds of domestic youth are commercially exploited 
each year. In 2012, the Los Angeles County reported that at 
least 60 percent of youth identified as victims of sex 
trafficking were in the foster care system. Estimates by local 
authorities indicate that the actual numbers are much higher, 
but there is a lack of available data to confirm these 
statistics.
    As an advocate of our nation's foster youth, I am pleased 
to see that the TIP Report urges the United States to increase 
training to case workers and other professionals who serve 
children in the child welfare system, similar to as the chair 
mentioned with the airline industry. We need to train our own 
service providers here. The report specifically notes that the 
Federal Government should issue official guidance to provide 
child welfare agencies with specific tools and information to 
better identify and serve foster youth who are trafficked or at 
risk of being trafficked.
    Furthermore, the TIP Report outlines the need for enhanced 
data collection to better understand the scope and scale of 
domestic human trafficking. In order to address these very 
gaps, I am proud to have introduced the Strengthening Child 
Welfare Response to Trafficking Act, along with my colleague on 
the subcommittee representative, Tom Marino. This bill will 
direct the Department of Health and Human Services to issue 
guidance to child welfare agencies with appropriate tools to 
identify, document, educate and counsel child victims of 
trafficking and those at risk and require child welfare 
agencies to report the numbers of victims of trafficking in 
foster care as well as their plans to combat trafficking to the 
Federal Government. I don't know and perhaps we can get into it 
in questions, I don't know if you work with Human Services 
here, but it would be great to have that collaboration going.
    In closing, Ambassador, I want to urge you to continue to 
pursue an interagency process that calls on all relevant 
departments and agencies to address this issue, like I 
described a minute ago. I have been generally impressed by the 
work of the Interagency Task Force to develop a comprehensive 
strategic action plan on victim services here in the U.S. to 
ensure that our limited resources are being maximized. The 
decision to include a public comment period to incorporate the 
input of broader civil society including survivors of 
trafficking into the plan increases its chance for success to 
increase awareness, identify more victims, and improve 
services.
    I look forward to posing some questions later on in this 
hearing. Thank you.
    Mr. Smith. Thank you very much. I now yield to the 
distinguished chairman of the full committee, Mr. Ed Royce of 
California.
    Mr. Royce. I thank Chairman Smith for holding this 
important hearing. I just want to also take a moment and thank 
Chris Smith for all he has tried to do to drive this issue as 
well as our former Speaker of the State Assembly, Karen Bass, a 
member of this committee for everything that she is attempting 
to do to stop human trafficking, especially trafficking of 
children. And the definition of a civilized world is one that 
comes to the aid of those who are most defenseless. And when 
you look at the situations around the world of children sold 
into slavery, sold into trafficking, or these situations that 
Karen has been talking about in terms of the group homes, we 
have girls as young as 13, 14 years old, these Romeos are sent 
there, these girls never have any idea the end goal that these 
men have for them. They think they are being rescued. But what 
is about to happen to them is a very, very horrendous situation 
followed by a very short lifespan for most of these young 
children.
    We want to thank Ambassador CdeBaca for his work and for 
being here today with the Office to Monitor and Combat 
Trafficking of Persons.
    We had a hearing earlier this year on this subject, prior 
to the report, and this modern-day slavery is what it is, is 
something that affects the lives of so many millions around the 
world, but also as we heard in testimony, also the lives of 
people here in the United States. And the commitment of the 
Foreign Affairs Committee as Chris Smith will attest is deep, 
it is longstanding, it is fully bipartisan, and our goal is to 
put a whole lot of more pressure on governments around the 
world to get engaged here.
    Earlier this year, I supported the Violence Against Women 
Act reauthorization, but I have concerns that cuts to the TIP 
Office and other aspects of the trafficking reauthorization 
contained in that bill might harm the important work of the TIP 
Office. I know that Chairman Smith is working hard to make 
certain that at the end of the day we do more to lean in on 
these governments. And against this background all of us were 
closely watching this country's peer rankings to see how the 
State Department would handle the statutory limit on how long 
countries could stay parked on the Tier II Watch List. And so I 
was somewhat encouraged that for the first time in memory, this 
year's TIP Report accurately ranks certain important countries 
such as China and Russia, based on the facts on the ground. And 
based on their lack of significant efforts to address the 
problem.
    I do wonder why other countries were not similarly treated. 
For example, I am very concerned that the Government of 
Cambodia remains part of the problem. My chief of staff spent 
her vacation in the past working with children in Cambodia who 
had been sold, who had been trafficked with the knowledge of 
local police, with the knowledge, full knowledge, of the local 
government. But I do believe that these new Tier III downgrades 
are well deserved. And I think that increased the credibility 
of the TIP Report, but at the end of the day I want to see more 
done across the board, especially with governments like 
Cambodia.
    The Report also underscores the broader challenges we face. 
Twice as many countries slip backwards in this year's report 
than have been improved since last year.
    And finally, in terms of this global issue, hitting close 
to home, just yesterday, the Orange County District Attorney, 
Tony Rackauckas, filed human trafficking charges against a 
Saudi princess accused of exploiting a Kenyan victim in 
California, so we will be following that case with interest.
    I thank you again, Mr. Chairman. I yield back.
    Mr. Smith. Thank you very much, Chairman Royce, for your 
leadership and for your very eloquent comments today.
    Dr. Bera.
    Mr. Bera. Thank you, Chairman Smith, Ranking Member Bass. 
Again, this is an incredibly important series of hearings and 
even one case of human trafficking is one case too many, but 
when you are talking about millions, this is an epidemic that 
requires all of our resources. And again, I applaud this 
committee for taking it up and making it a priority and we have 
to make it a priority for the entire population in America. It 
goes to our core values of human decency, human respect, and 
dignity.
    We certainly have to focus in on what is happening 
internationally, but we also have to look at the supply side of 
this as well. We have to raise our standards of values. So when 
we are shopping someplace, when we are buying our goods and 
services, we know we are not spending resources at places that 
are engaging in human trafficking.
    We also have to hone our conversation. Ambassador CdeBaca, 
you pointed out the importance of just basic education so that 
our first responders can recognize and report potential cases 
that our healthcare providers, that our teachers, that everyone 
in this country can recognize it, so we stop it here 
domestically as well and stamp that out. And you identified a 
case of a police officer in Sacramento who just with a single 
day of training really raised his awareness. So this is an 
epidemic that has to stop and again, it goes to our basic 
values as just human beings.
    So again, I applaud the efforts of this committee. Again, 
this is a bipartisan issue that just is about human decency and 
what we stand for. So we look forward to working with you and 
you clearly have the full support of all of us. Thank you.
    Mr. Smith. Thank you, Dr. Bera. Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman, and thank you, 
Ambassador, for being here to testify. As most of us in this 
room know, this annual Trafficking in Persons Report is one of 
the best tools that we have in terms of identifying human 
trafficking and reports on some 186 countries, utilizes U.S. 
Government research, foreign government statistics, NGO 
information, evaluates really whether a country is meeting, and 
may I stress minimum standards to eliminate human trafficking. 
But really none of that matters. We have had a number of 
hearings here, none of that matters if the Report is not acted 
on. And for me, I think that is what I look forward is how can 
we make sure that if a bad report is presented, that it has 
consequences that comes with that. We look over and over and we 
have heard testimony in this very room how if there are no 
consequences or if there is not a consistent standard, what we 
find is is that human trafficking really doesn't change.
    The State Department has not let us know if they will put 
on sanctions for any Tier III countries. And yet, they have the 
law and the capability to do that and we seem to resist that.
    There is obviously some very encouraging statistics we have 
seen here in this report, some that are not quite as 
encouraging, but what we all know is that this will not improve 
unless there is an incentive, a real incentive, not just empty 
words and empty rhetoric, but a real incentive to make sure 
that we stop this. It is bipartisan. Both the chairman and the 
ranking member have said it so well that we have to place an 
emphasis on this, not just abroad, but here in the United 
States. My daughter has been involved in human trafficking 
issues in the United States for a long time to highlight that 
and what we have happening also in our neighborhoods, in our 
communities around us must be stopped.
    So with that, Mr. Ambassador, I thank you for your heart 
and what it represents.
    Chairman Royce pointed out one other thing with regards to 
VAWA. When it passed, I was deeply concerned about reduction in 
some of the emphasis in human trafficking both from a reporting 
standpoint, a jurisdictional standpoint, and a funding 
standpoint that I look forward to working with the chairman and 
the ranking member to hopefully correct. I look forward to 
hearing your testimony on that.
    I yield back, Mr. Chairman, and I thank you.
    Mr. Smith. Thank you, Mr. Meadows. Now we turn to our 
distinguished witness and thank him for being here. Ambassador 
Luis CdeBaca coordinates U.S. Government activities in a global 
fight against contemporary forms of slavery. He serves as 
senior advisor to the Secretary of State and directs the State 
Department's Office to Monitor and Combat Trafficking in 
Persons which, as we all know, assesses global trends, provides 
training and technical assistance, and advocates for the end of 
modern-day slavery.
    Ambassador CdeBaca formerly served as counsel to the House 
Committee on the Judiciary, whereas his portfolio included 
modern slavery issues, among many others. He also served as a 
Federal prosecutor with the Department of Justice where he 
prosecuted and successfully convicted dozens of pimps and 
abusive employers and helped liberate hundreds of victims from 
servitude.
    So Mr. Ambassador, the floor is yours.

 STATEMENT OF THE HONORABLE LUIS CDEBACA, AMBASSADOR-AT-LARGE, 
   OFFICE TO MONITOR AND COMBAT TRAFFICKING IN PERSONS, U.S. 
                      DEPARTMENT OF STATE

    Ambassador CdeBaca. Thank you, Mr. Chairman, Ranking Member 
Bass, and other members of the committee. Thank you for the 
invitation to testify today about the 2013 Trafficking in 
Persons Report. But most importantly, thank you for your on-
going concern and leadership in our country's effort to combat 
modern slavery.
    Since I became Ambassador-at-Large 4 years ago, a lot has 
changed in the antitrafficking movement for governments are 
living up to their responsibility to fight this crime. More 
stakeholders are contributing expertise and resources. And more 
individuals are aware of the way that modern slavery affects 
their lives. But one thing that has not changed is the 
partnership across the United States Government when it comes 
to fighting human trafficking, in both the administration and 
on Capitol Hill, in both the House and the Senate and in both 
sides of the aisle.
    It is a partnership that secured the renewal of the 
antitrafficking law earlier this year, a partnership rooted in 
the idea that we as a nation need to stand up for universal 
values, values of freedom, justice, and dignity of all people, 
here at home and around the world. These are the values that 
drive our work to fight modern slavery. These are the values 
that drive our imperative to deliver on the 150-year-old 
promise of freedom made by President Lincoln.
    At the same time, we also make combatting trafficking in 
persons a priority in domestic and foreign policy because doing 
so is in our country's strategic interest. Trafficking persons 
is a crime that threatens rule of law. It feeds on the 
vulnerability of marginalized populations, creates further 
instability and damages communities, corrupts labor markets and 
global supply chains, the very things that are essential to a 
thriving global economy.
    So it is not only the right thing to do, but the smart 
thing to do. And as President Obama made clear in this speech 
of the Clinton Global Initiative meeting last fall, the United 
States will continue to be a leader in this global movement. 
President Clinton said something right after that. He said that 
``the foundation world and all of us in public life have not 
necessarily done enough to deliver on that promise.'' And so 
that challenge that was put down not just by President Obama 
that day, but by President Clinton as well, is a challenge that 
should ring out for all of us. It is the challenge that Mr. 
Bera suggests. What am I doing? What are we doing in our own 
lives as consumers, as policy makers, as Americans?
    We ask ourselves that question each day at the State 
Department. And what we do is we try to press forward through 
assistance to organizations working on the front lines, 
providing aid to victims and helping governments build up their 
capacity. We bring more stakeholders to the table through 
partnership efforts, harness civil society, the resources and 
innovativeness of the private and the commitment of groups and 
individuals who, like us, reject slavery in the 21st century. 
And through diplomacy, we urge governments to fully embrace 
their responsibility to deal with this crime and we will work 
with any government that takes this problem seriously.
    One of our most important tools along this line is the 
annual Trafficking in Persons Report. I would like to say a few 
words about our major findings this year. My prepared testimony 
goes into greater detail, and Mr. Chairman, you gave us a very 
good overview as well of some of the trends that we are seeing 
out there.
    Once again, this report tells us that trafficking in 
persons affects every country in the world. And it also tells 
us that there is no government in the world that is doing 
enough to fight it.
    Our major focus this year is the importance and challenge 
of effective victim identification. When done well, victim 
identification opens the door to the support and services 
trafficking victims, trafficking survivors need. Victim 
identification leads to more investigations and prosecutions 
and allows survivors the opportunity, if they choose, to share 
their experiences and have a voice in the way that we shape our 
antitrafficking policies and practices. It is the critical 
first step in stopping this crime.
    And yet, only about 47,000 victims were brought to light in 
the last year, compared to that 27 million people living in 
slavery. That massive gap represents the millions who toil 
unseen and beyond the reach of law and it shows how far we have 
to go in this effort. At the same time, we do see modest gains, 
more victims identified, more countries adopted modern 
antitrafficking laws, more countries moving toward a whole of 
government approach so necessary to confront this crime.
    Now beyond the global trends, the report includes the 
assessments of the countries and territories on their 
government's effectiveness in combatting this crime. And we 
have seen an unfortunate reversal of the trend over the last 
few years. More countries were downgraded this year than were 
upgraded by a margin of nearly two to one. This year, 30 
counties, including the United States are on Tier I in the 
report, meaning the governments of these countries are 
complying with the minimum standards set by Congress. And I 
would like to be clear and I would like to repeat what Mr. 
Meadows has said, these are only minimum standards. A Tier I is 
not a perfect score. A Tier I is merely a passing grade. Every 
country, every government, can be doing more to deal with this 
challenge.
    This year, 92 countries are in Tier II. Those governments 
don't meet all the minimum standards, but we are seeing some 
serious efforts there. And 44 countries are on the Tier II 
Watch List, countries that despite making some efforts aren't 
getting positive results or the situation may actually be 
getting worse. An example I think that reflects Chairman 
Royce's concerns, Cambodia, the downgrade of Cambodia to Tier 
II Watch List this year very much reflecting a downward trend 
in that country.
    And then, of course, Tier III, those countries where the 
governments aren't doing much at all to deal with this crime 
and this year there are 21 countries.
    This report doesn't pull any punches. It is thorough and 
candid and as Secretary Kerry said at the rollout of the 
report, this report is tough because this is a tough issue and 
it demands serious attention. It is tough, but it isn't 
necessarily punitive, we are not claiming to have the answers 
because we don't. Know that the better information that we have 
about modern slavery, what works there and what works here, the 
more we are able to share those best practices, that we are 
able to learn from our partners, and we are able to share what 
we are doing correctly, the better we all will be in 
confronting it.
    So we are not just pointing a finger. We are extending a 
hand to anyone who agrees that this is a problem that we need 
to grapple with. The Trafficking in Persons Office's 60 staff 
members are committed abolitionists, subject matter experts, 
and experienced diplomats and they work with their colleagues 
in the field with ever-intensifying expertise across the U.S. 
Foreign Service and across civil society. One of those staff 
members, Senior Coordinator for Reports and Political Affairs, 
Mark Taylor, is leaving us next week for an exciting 
opportunity in Southeast Asia. We all owe him a debt of 
gratitude for his decade of leadership because under his 
command, the Reports and Political Affairs Section has seen a 
report that has shone a light in the dark corners of the world 
and driven policy change for the better for the vulnerable 
around the world.
    So this report is a guide for ourselves, for governments, 
and for everyone who shares our goal of a world without 
slavery.
    Thank you all for your commitment and your partnership.
    [The prepared statement of Ambassador CdeBaca follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Mr. Ambassador, thank you again for your 
testimony and again, thank you for your extraordinary 
leadership.
    Let me just begin with a couple of questions. Nigeria was a 
Tier I country in 2010 and 2011. I actually visited Nigeria and 
met with their JTIP, their equivalent of our office to combat 
trafficking. They seem to be very, very focused. I visited two 
shelters. They were inadequately housed, but it was a 
resourcing problem. And I am wondering if you might speak to 
why they are Tier II? Of course, they are not Tier III and they 
are not a Watch List country, but when Nigeria was put on Tier 
I, it was cause for celebration that one of the most populous 
of the African countries had made such progress. What has 
happened?
    Ambassador CdeBaca. Mr. Smith, I am glad you asked about 
Nigeria because to us there is so much promise in NAPTIP, the 
Nigerian antitrafficking structure. The very structure of 
NAPTIP and the way that they are staffing their offices to us 
is an innovation that all countries in the world should look 
to.
    This notion of bringing together police officers, 
prosecutors, and social workers assigned to the same case on 
the same day, it is not police officers work a case for a year 
and then they maybe take it to a prosecutor who turns it down 
because they have never met the victim. It is not social 
workers as an afterthought. It is actually integrating those 
three things. And that was I think one of the things that drove 
us in 2009 as far as the upgrade was concerned.
    There has been leadership changes in NAPTIP over the last 
year or so and I think that those are also things that we are 
looking at that will have a very positive effect. The new head 
of NAPTIP is energetic, she is innovative, and she is serious. 
And we think that that is putting them on an upward trajectory. 
I can't say what the tier rankings would be for Nigeria in any 
given year. We have to look at the evidence for those 12-month 
periods. But we do think that there is positive movement in 
Nigeria.
    Nigeria as a model, I think one of the things that we have 
seen is whether a country is a Tier I country or a Tier II 
country. If there is an innovation, we need to call people's 
effect to that. And I, on the Senate side, was in front of an 
Asia Subcommittee that was perhaps a little more skeptical 
about Nigeria and skeptical about the fact that we would think 
that much wealthier or other high-status countries in the Asia 
region could learn from a Nigeria on a law-enforcement issue. 
And frankly, that was something that we took back and we went 
straight to those governments and said Nigeria is doing this 
right and we all need to look at them as a model.
    Again, each year we look at the rankings and we will see 
where we go. But we are heartened by some of the innovations 
that we see out of NAPTIP.
    Mr. Smith. A few weeks ago, Mr. Ambassador, the chairwoman 
of the Foreign Affairs Committee for China, Madame Fu, sat 
right where you are sitting, but facing the other way and we 
had a dialogue, members of our committee. I brought up the 
trafficking issue and the nexus with the one-child-per-couple 
policy and the gendercide that has occurred systematically over 
the last 30 years through sex-selection, abortion, and the fact 
that tens of millions of girls and now young women are missing 
simply because of sex-selection abortion. And as I pointed out 
in my opening, straight from the TIP Report, you point out that 
the skewed sex ratio of 118 boys to 100 girls in China has 
served as a key source of demand for the trafficking of foreign 
women. And I would also add for domestic women moving in 
country around in China.
    Madame Fu was indignant that I even brought it up. When I 
mentioned to her that 600 women, just under 600 women per day 
commit suicide in China, it is the only place in the world 
where the numbers far exceed male suicides, directly 
attributable to the one-child-per-couple policy and now this 
horrible consequence of trafficking, she said I was making it 
up. But I pointed out that our State Department's country 
reports and human rights practices makes very clear that that 
number came from their Chinese Government's equivalent of the 
Centers for Disease Control. And she looked at it and walked 
away in a huff.
    My question is what was the Chinese reaction to being 
placed on Tier III? If you could maybe elaborate on how this 
demand is only getting worse, especially for the ASEAN 
countries where women are being trafficked, and that goes for 
North Korea as well, into China because of the scarcity of 
women. They don't exist relative to the number of males in that 
country, so demand has been skyrocketing. If you can speak to 
that as well.
    And thirdly, where do you think the administration may go 
on enforcing or implementing a sanctions regime on the PRC?
    Ambassador CdeBaca. Perhaps I will take those backwards.
    Mr. Smith. Sure.
    Ambassador CdeBaca. Once the Trafficking in Persons Report 
comes out, there is then a 90-day period in which we look at 
the possibility of sanctions for the Tier III countries. And we 
work with our colleagues in the regional bureaus. We work with 
the White House and others in looking to see to what extent 
there is aid to those countries that we would then be having 
impact on, to what extent there are things that we would want 
to preserve the working relationship around, especially things 
like law enforcement training and other things that go directly 
to the human trafficking issue. Because, of course, you don't 
want to cut off the way that you can make change with a 
particular country, and so trying to figure out what the 
universe actually is as far as U.S. foreign assistance that 
would be subject to sanctions. And that is the process that is 
going on right now. I can't speak to where that is going to end 
up. I can certainly tell you though that we are taking it with 
all seriousness and not just in China's situation, but in all 
of the Tier III countries. And there are some new Tier III 
countries. There are also countries that have been in Tier III 
in the past. And each year we want to look at those with a 
fresh slate because we want to make sure that the sanctions 
regime is tied to the rankings, but also tied to the situation 
on the ground. And that typically, I think we are usually 
talking about a mid-September date as far as the sanctions 
decision by the President.
    As you point out, Mr. Smith, the Trafficking in Persons 
Report does not shy away from recognizing the interrelationship 
between the one-child policy, the sex ratios, and the demand, 
especially for women, not just for bride trafficking, but for 
sex trafficking as a whole. That notion of the disposability of 
women that we see, as Kevin Bales calls the situation of 
trafficking the problem of disposable people. I think that that 
is something that we have raised with the Chinese, not simply 
in the context of the report, but when I am sitting down with 
my counterparts talking about human trafficking, it should come 
as no surprise that this is one of the concerns that we have. 
And we certainly communicate that to them.
    Their response this year without necessarily getting into 
the middle of particular diplomatic conversations, and I think 
just as we had had a fruitful visit a few months ago to China, 
we feel that there is some room to work with the Chinese. The 
ratification of the Palermo Protocol, finally, the new Plan of 
Action, these are very positive things. The new Plan of Action 
came out after the reporting period closed and so it is not 
something that is necessarily reflected in this report. But the 
new Plan of Action for the first time actually says let us look 
at unofficial work. It had been that trafficking could only 
happen officially in China if you had an abuse within a labor 
unit. And if you weren't in an official labor unit, you weren't 
employed and so therefore you couldn't be held in forced labor. 
So all of the underground economy was exempted from the 
application of the law. So the notion of them closing that 
loophole, the notion of them looking with the All-China Women's 
Federation so that you could have the screening of people who 
were found in prostitution as a matter of course, these are all 
things that we are enthusiastic about when we look at that 
action plan. That action plan is a future promise and future 
promises under the Trafficking Victims Protection Act are Tier 
II Watch List criteria. And so when we look at that action 
plan, when we look at what may come from it, we are going to be 
working with the Chinese and I think that their response to the 
report and the discussions that we are going to be having with 
them coming out of their response shows that there is, I think, 
a lot of places that we can work together on this, rather than 
being at loggerheads.
    Mr. Smith. I do have many other questions, but I will yield 
to my friend, Ms. Bass.
    Ms. Bass. Thank you very much, Mr. Chairman, for yielding. 
I actually want to ask you a couple of questions, but not as 
Ambassador, in your prior role, thinking about the U.S. and 
giving your years of experience as a prosecutor, so we are 
grappling with a couple of things. I mean right now we know ten 
states have passed safe harbor laws to protect children from 
being criminalized and charged with prostitution when I don't 
believe a person under the age of consent could be considered a 
prostitute.
    So my question would be what would you advise Congress to 
do in order to encourage or incentivize states to enact strong 
safe harbor laws? And then until those laws are passed, I am 
also concerned about girls that have already have that on their 
record. Then they try to turn their life around and they have 
soliciting. So how do we address that? And I want to know if 
you are familiar with any states that have been successful in 
eliminating charges related to sexual exploitation. California 
has led the way in one area, but----
    Ambassador CdeBaca. Well, this is actually part of my 
ambassadorial hat as well because of the senior policy 
operating group which I chair is a way in which we bring the 
entire interagency together to wrestle with these. I think I am 
probably unique among the ambassadorial corps in that I have 
the domestic responsibility as well. We try to do that as 
collaborators and with a relatively light touch across the 
administration, getting everybody moving in the same direction, 
especially as the President has, I think, shown such leadership 
on this over the last 8 months or so.
    What we have seen is a very exciting set of legislative 
sessions this spring. There are some states in which this was 
the only session because they are on 2-year cycles. And so we 
have seen an explosion in not just laws being passed and sent 
to the governor for signature in places not just in your states 
that have done a lot on this over the years like California and 
New Jersey, but also in places like West Virginia and even 
Wyoming finally passing their state antitrafficking statute. 
But that notion of safe harbor and the notion of expungement we 
are starting to now see that.
    And something that my office has been working with the 
States' Attorneys General and the National Conference of State 
Legislators on, it is something that our friends over at DOJ 
and HHS, especially, have been working with.
    Ms. Bass. Can we get that information from about the states 
and all, get that information?
    Ambassador CdeBaca. Very much so. I mean I think a lot of 
that ends up being kind of the normal type of intergovernmental 
work, the phone calls of encouragement and things like that. I 
have testified by phone, for instance, in the West Virginia 
legislature. We don't have a product that we are sending out to 
them, etcetera, but we can certainly get you some more 
information about what we have been doing. And I think that 
part of it is that again, the bipartisan effort of the National 
Attorneys General Association led by Martha Coakley last year, 
but then really pushing out now as not just a 1-year 
Presidential initiative, but something that is going to sustain 
itself. I think that is one of the things that we have seen.
    When you hear the stories of these women who have been able 
to get their records expunged, they are able to get a 
cosmetology license. They are able to move on with their lives.
    [Additional information follows:]
Additional Written Information Received from the Honorable Luis CdeBaca 
    to Question Asked During the Hearing by the Honorable Karen Bass
    According to the 2013 Trafficking in Persons (TIP) Report, all 
states and all but one territory have enacted modern anti-trafficking 
criminal statutes in recent years. All 50 states prohibit the 
prostitution of children under state and local laws that predate the 
Trafficking Victims Protection Act; however, the application of these 
laws continues to result in some trafficked children being treated as 
criminal offenders. By the close of the reporting period (FY 12), some 
states had passed additional protections such as asset-forfeiture 
provisions, access to civil remedies, and training for law enforcement; 
14 states had enacted ``safe harbor'' laws to ensure that children are 
treated as victims and provided services rather than being prosecuted 
for prostitution; and eight states had enacted laws to allow 
trafficking victims to petition the court to vacate prostitution-
related criminal convictions that result from trafficking. While these 
laws reflect an increased effort by state legislatures, observers 
report that state anti-trafficking laws generally lack uniformity and 
consistency across jurisdictions.
    Since our reporting on ``safe harbor'' laws in the 2013 TIP Report, 
five additional states have passed some form of this type of law. 
States have also improved upon and implemented existing ``safe harbor'' 
laws including, but not limited to, New York and Minnesota. The state 
of New York amended their ``safe harbor'' law to protect 16- and 17-
year old trafficking victims in addition to those aged 15 and younger. 
The Minnesota Legislature approved $2.8 million in funding to implement 
their ``safe harbor'' law enabling the state to hire a statewide 
director of child trafficking prevention and six regional coordinators, 
to train law enforcement and prosecutors, and to provide shelter and 
housing to child victims.

    Mr. Smith. Mr. Ambassador, let me just ask you with regards 
to Vietnam which is one of the disappointing parts. I know you 
don't make all of the decisions, the regional bureaus certainly 
have input to say the least and there is very often, I have 
heard this from the previous Ambassadors, including Ambassador 
Mark Lagon, that it is a battle, fighting to ensure that the 
right tier ranking occurs.
    I recently introduced and got passed in full committee, the 
Vietnam Human Rights Act. This will be the third time that I 
tried to get that bill enacted into law and held a hearing on 
it. There were actually two hearings. Vietnam is deteriorating 
when it comes to human rights at breakneck speed. There have 
been more show trials in Vietnam in 2013, in the first 3 months 
of 2013, 40, than there were in all of 2012. As a matter of 
fact, it was pointed out by Human Rights Watch that there has 
been a huge deterioration across the board when it comes to 
human rights in Vietnam.
    When it comes to trafficking, as well as designation of 
CPC, country of particular concern, I think there has been a 
missed opportunity on our part to so designate Vietnam such a 
country because on religious persecution they have also been in 
a race to the bottom. But when it comes to the TIP, Vietnam 
certainly, both labor and sex trafficking, I believe, has 
really deteriorated. The TIP Report acknowledges that Vietnam's 
anti-TIP law has not been implemented because criminal 
penalties have not been established. Prosecution is limited to 
two provisions in the existing penal code, Article 119 on 
trafficking of women and Article 120, but none of the labor 
trafficking activities committed under the government's labor 
export program involving government-owned or sanctioned labor 
export companies have been prosecuted.
    And I am wondering, given that record and that you were 
personally involved with the first case to be prosecuted under 
the law that I wrote, the TVPA of 2000, concerning Daewoosa in 
American Samoa and they still have not been forthcoming with 
the judgments that were rendered in that decision either. So 
that is 13 years old. But that pattern continues, and as I said 
before in my opening, we heard from a woman who testified right 
where you sit whose sister was trafficked to Russia, forced 
into a brothel, and at least three people in the Vietnamese 
Embassy tipped off the brothel owner when the Russian 
Government was going to send in police to liberate those women. 
So they are complicit. It couldn't have been more clear. And 
she told the story of her sister who had been so ill-treated 
and to this day others who have spoken out in Vietnam fear for 
their lives. She said she feared for her life and her family 
members who are still in Vietnam.
    It would seem that the government has done an awful job and 
if you could speak to that issue because it seems to me that 
Vietnam should be, it seems to me there ought to be, they 
deserve to be, on Tier III just like China.
    Ambassador CdeBaca. I think one of the things that we have 
seen in Vietnam over the last year or so is that there have 
been some of the structural activities on the part of the 
government, the decrees that put out guidance on victim 
identification; a new policy on people who are arrested for 
drug offenses, not immediately being put into those re-
education camp, detention facility-type things where they were 
facing forced labor, but as the report this year sets out, this 
is a situation which is very much as you recognize, a mixed 
bag. We see almost 500 offenders being sentenced. That is a 
positive. On the other hand, we also see these situations with 
the labor export. We see a good track record of identifying 
almost 900 victims, but when you look at that it is 900 victims 
almost all of whom who are of internal sex trafficking cases as 
opposed to looking at the forced labor, whether it is external 
or otherwise. And I think that that is where we see kind of 
this mixed bag situation. There is something good that is 
happening and then there are these kind of bigger overarching 
structural issues.
    And so it is certainly something that we are taking into 
account as we now switch over to kind of the diplomatic phase 
after this initial report situation. And I think it is 
something that as you mention, I have had personal experience 
with the overseas labor issues on Vietnam and it is something 
that we are continuing to look at. We are continuing to 
monitor. And especially our Embassy in Moscow because that 
seems like this pipeline has opened up, garment factories east 
of Moscow, whether it is in service industries or light 
construction, that notion of the Vietnamese and Russian guest 
worker situation has always been present, but it seems to be 
perhaps if not intensifying, it is being reported on more when 
the abuses are coming out in the Russian press.
    And so it is one of those things where we have to look at, 
not simply what are we monitoring that is happening within 
Vietnam, but starting to look more at where the Vietnamese are 
being sent and what is happening to them once they get there.
    Mr. Smith. Let me just ask you, has the Vietnamese 
Government initiated charges against labor export companies or 
against traffickers involved with the Russian case?
    Ambassador CdeBaca. Not to my knowledge, but I would have 
to check back.
    Mr. Smith. If you could get back to us on that that would 
be helpful.
    [The information referred to follows:]
 Written Response Received from the Honorable Luis CdeBaca to Question 
     Asked During the Hearing by the Honorable Christopher H. Smith
    It is our understanding that Vietnam's Ministry of Public Security 
(MPS) last year concluded an investigation into allegations that more 
than 80 Vietnamese workers were recruited to work in textile factories 
in Moscow and subjected to forced labor. The MPS investigative unit for 
trafficking publicly recommended that the Government of Vietnam charge 
the Vietnamese labor export company in the case--Hanoi Investment and 
Construction Joint Stock Company 1 (HICC1)--with human trafficking. 
However, the Supreme People's Procuracy rejected the recommendation to 
bring trafficking charges due to ``lack of evidence'' and returned the 
case file for further police investigation. Our understanding is that 
the case is now under additional investigation. According to the 
Ministry of Foreign Affairs (MFA), on international labor trafficking 
cases, Vietnam's criminal justice system requires extensive legal 
assistance from the police forces of the countries where the 
exploitation occurred in order to successfully prosecute on human 
trafficking charges.

    Mr. Smith. And again, I would just say that Vietnam did a 
very good job of fooling people when the bilateral agreement 
was coming forward that they would make serious efforts on 
religious freedom and other human rights abuses and even people 
who signed Block 8406, similar to Vaclav Havel's Charter 77, a 
great human rights manifesto, they have become targeted in a 
very systematic way. So what I am suggesting is that the 
backdrop of decrees being promulgated need to be looked at like 
a grain of salt when that is exactly what they did with 
religious freedom.
    I remember our Ambassador-at-Large for Religious Freedom 
under the Bush administration thought that he had what he 
called deliverables when it came to religious freedom issues 
and not one of them was acted upon and it got them off the CPC 
designation. And they never went back on it as they ought to 
have. So I think they are very good at gaming the situation and 
talking a good game, but they don't walk the walk. So I would 
hope that you would take that back and I know you care about 
this deeply so take a good, hard look at if you would on 
Vietnam.
    The report also indicates that the Government of India 
provided no information on investigations or prosecutions of 
trafficking offenses or on convictions or punishments of 
trafficking offenders. So my question would be many of us, I 
remember vividly Gary Haugen who you know and I know so well, 
10 years ago sat where you sat at one of the hearings I had on 
trafficking and showed a video of police being tipped off in 
Mumbai when these young, 13-, 12-, 11-year-old girls had been 
hidden. They had the video of these little girls who were 
hidden and they were brought up out of a cellar. They could 
barely see because they were in a dark cellar, but the police 
had been tipped off and that seems to be the modus operandi in 
many situations in India. And certainly police are under the 
minimum standards by definition, are considered part of the 
government, because I am the one who wrote those minimum 
standards with a great deal of assistance from my colleagues. 
But we made sure that government complicity was inclusive of 
police.
    And I am wondering again how India can qualify as Tier II 
and not Tier III or at least Tier II Watch List?
    Ambassador CdeBaca. Well, India is certainly a country that 
has a very serious trafficking problem, I think certainly the 
scope of the problem. Also, the way it manifests as you 
mentioned the brothels with children, the folks on farms and 
rice mills and brick kilns and other factory-type settings. It 
is a multi-faceted trafficking problem in one of the largest 
countries in the world and manifests itself differently in 
different states and different regions.
    I think one of the things that we have seen that is 
important over the last few years in India is that notion of 
the--especially the Interior Ministry coming together around 
this issue, the leadership from the ministers themselves and 
some of the high-ranking staff that is showing that kind of 
political will that it takes to fight human trafficking, the 
creation of the antitrafficking units out in the field. And we 
recognize that some of those are a work in progress, the notion 
that you have got about almost 500 antitrafficking units and 
the police and some of those are clicking along and especially 
if they have relationships with the non-governmental 
organizations, and not just the international non-governmental 
organizations from the U.S. or from Europe, but the Indians who 
are working on this. A number of those organizations played a 
key role in the passage of the trafficking legislation this 
last year in India. And that is something that we can't 
overstate. India had been going in a different direction than 
the rest of the world over the last 10 years on human 
trafficking legal regime.
    Their Immoral Trafficking Prevention Act actually was 
something that applied to the persons in prostitution as much 
as it did to the pimps and traffickers who were abusing them. 
And so one of the reasons why we were suspect of the numbers 
that one would get historically from India was that many of 
those numbers were very probably women and children in 
prostitution who had been prosecuted under the Immoral 
Trafficking Prevention Act.
    Now we finally have a modern anti-slavery, antitrafficking 
law that aims at the abusers, not at the victim. That came in 
right at the end of the reporting period. It came in because 
of, we think, that new relationship between the Ministry of 
Interior and civil society responding, of course, to the 
horrible tragic gang rapes that were being reported upon this 
spring. But it was, I think, a situation where we look at kind 
of where we are in India this year. What have we seen over the 
last 12 years? I think especially the work of the HTUs which is 
a rebuke of sorts to those who had claimed in the past that the 
Indian Government could not have a centrally-managed 
antitrafficking effort because of their constitution. The home 
ministry has proven them wrong and I think it is something that 
we want to continue to support the home ministry and as they 
continue to do their work.
    Mr. Smith. That obviously happened before the report was 
published or before the time closed. Have you been pleased with 
the progress they have made in enforcing their new law?
    Ambassador CdeBaca. Well, I think it always takes some 
months for laws to get out of the blocks, as it were. It is not 
a drag race. And so I think it is something that we are going 
to be really looking to see as to how that law comes out.
    One of the things we saw in a similar----
    Mr. Smith. Does it treat the dalits equally?
    Ambassador CdeBaca. Excuse me?
    Mr. Smith. Does it treat the dalits equally?
    Ambassador CdeBaca. The dalits, it applies to them as well 
as everyone else in India. Now the proof is in the pudding and 
I think that that is what we are going to see is is the 
enforcement then done in the same kind of neutrality that the 
text of the law itself would have.
    Mr. Smith. The report shows that the victim identification 
in the Western Hemisphere decreased by 15 percent. Is there a 
reason for that?
    Ambassador CdeBaca. You know, I don't think that we have 
enough to really go from that as to speculate as to exactly 
why.
    Mr. Smith. Okay.
    Ambassador CdeBaca. I think one of the things that we are 
seeing is that there is a little bit of a double-edged sword 
without increased attention to the data collection efforts in 
that we are really interrogating the data which sometimes means 
that we end up looking at claimed victims identified by 
government and we will say now what you are actually telling us 
is about alien-smuggling cases or those are people who you 
prosecuted for prostitution offenses. So by interrogating the 
data, in some countries will end up having a circumstance where 
it looks like there are less victims identified than in prior 
years, when in fact what was happening is those prior years 
victim identification claims may have not been as accurate as 
this year's.
    So I think it is something we are working through, 
especially with a lot of the Latin American governments as we 
are bringing them into the modern definitions of human 
trafficking.
    The OAS Plan of Action and some of the work that UNODC has 
done in the Western Hemisphere is getting more and more 
countries to be able to differentiate between alien smuggling 
on the one hand and human trafficking on the other. And so I 
think that we are going to be seeing much more accurate 
reporting as far as victims identified, but it all comes back 
to that definition whether in the Indian context, whether in 
the Western Hemisphere context.
    Mr. Smith. Mr. Ambassador, let me ask you about Cuba which 
is the only Tier III country in the Western Hemisphere. 
According to the report, Cuba still does not prohibit 
prostitution of children age 16 and older. This is of great 
concern, given the administration's effort to open tourism 
between the U.S. and Cuba. And over the past several years, I 
have read many reports about the abuse of children in Cuba for 
child sex tourism, particularly to Europe and to Canada. I 
remember I was in Geneva when it was still called the U.N. 
Human Rights Commission before it became the Council and there 
was one report that some activists had that clearly showed that 
this a big money maker for Fidel Castro. And the man that had 
it was actually hit by some of the Cuban--he was out running, a 
van stopped. He was cold-cocked in the head by some of these 
thugs because he was raising this issue among delegations, 
including the U.S. delegation, in Geneva.
    I read the report and it was horrible how children are 
exploited in Cuba. And I am wondering if you might want to 
expand upon that and whether or not sex tourism prosecutions 
might be included in the report to give a further sense of just 
how bad it is. Parenthetically, I remember I was in Brasilia 
some years ago meeting with parliamentarians there on 
trafficking and learned just how many child predators make 
their way to Brazil. And they were fully aware of it, were 
trying to combat it and they did a Plan of Action that was 
wonderful, but it is still a problem. But Cuba, obviously, is 
not visited by predators from this country, at least not in 
large numbers, and not yet. But that could become a major 
problem. If you could expand upon that?
    Ambassador CdeBaca. Well, I think with Cuba, obviously, 
there are challenges not only as far as doing the type of law 
enforcement that would be necessary. As you rightly point out, 
the fact that the U.S. travel to Cuba is as limited as it is, I 
think that you have seen other countries in the region that 
have had more of a destination status for U.S. child sex 
tourists, whether it is the Dominican Republic or some of the 
Central American countries.
    I think that one of the things that we have seen though is 
that this issue of child sex tourism, this issue of child abuse 
is traditionally an area that we are able to work on with 
countries around the world no matter how the relationship may 
be on other issues. And it is something that just as with the 
migration talks and other things that we hold with Cuba, it is 
something that we would want to continue to try to have 
dialogue on with the Cuban Government.
    We all have a shared goal of protecting our children, 
whether those are our citizens or children here in the 
hemisphere and it is something that we will work with any 
government in the hemisphere or around the world that is 
willing to work with us in protecting children.
    Mr. Smith. Just let me ask you, when do you expect action 
on the sanctions regime as prescribed by the TVPA 2000 and all 
the subsequent authorizations? Soon? Is it being looked at 
country by country to ensure that there is a second shoe to 
drop?
    Ambassador CdeBaca. Indeed. That is what we are doing right 
now, the sanctions regime starts now. We are a little bit of 
walking and chewing gum at the same time in that we are also 
out demarching governments, talking to governments. The Tier II 
Watch List countries, especially the ones that are on the auto-
downgrade provisions for next year are places where we are 
going to be spending a lot of our time and attention. We are 
doing that and working on the sanctions and restrictions 
analysis right now and we typically have had that out the door 
in the September-October area. So I think we are looking at a 
couple of months as far as getting that out and getting that up 
to you.
    Mr. Smith. Madagascar, since the coup in 2009, the country 
has been excluded from AGOA as well as the Millennium Challenge 
account and the report on Madagascar places it on the Tier II 
Watch List and points out that trafficking has increased there. 
And of course, we need to follow our own laws and when there 
are serious human rights abuses, and in this case a coup, we do 
have to implement the law. But something I am wondering about--
there is mention made in the report that parents are forcing 
their own children into various forms of prostitution. Could 
you just perhaps focus a bit on Madagascar and what we might do 
to help mitigate a worsening problem there?
    Ambassador CdeBaca. Well, I think it is several things. 
Obviously, post-coup, post-March of 2009, fighting trafficking 
has just not been a huge priority, but we did see increase in 
law enforcement efforts by folks at the working level and I 
think that that is one of the things that this year's ranking 
reflects is the fact that maybe not at the policy level, maybe 
not at the central level, but the folks out in the field are 
doing this.
    We have been, I think, positively struck by how many good-
hearted law enforcement folks there are in countries that have 
otherwise abysmal records on whether it is human rights or 
access to justice and rule of law. And somehow those people end 
up finding out about and working on human trafficking. I think 
it shows that there are people we can work with across the 
board on a lot of these governments.
    One of the things that we have seen is this notion of 30 or 
so prosecutions that have been brought, a couple convictions 
obtained. That is not insubstantial in a country that had not 
been doing anything basically.
    I think that one of the things though that we really look 
at going forward is what are the shelter opportunities? What 
are the ways that we can go after the complicit government 
officials and we are starting to see the same trend, the very 
worrisome trend as in other parts of East Africa which is 
Malagasy women who are now ending up in the Persian Gulf as 
domestic servants. I think that that is something especially as 
we look at the Africa situation, the notion of whether it is in 
Lebanon, for instance, in a case of the Malagasy women, whether 
it is in Lebanon, whether it is in the Gulf countries, other 
parts of the Near East region where traditionally the servants 
were coming from Indonesia, were coming from the Philippines, 
etcetera. How we are starting to see in this situation folks 
from Madagascar, but also from Kenya, from Ethiopia, from 
Uganda. And they are coming into a situation where there is not 
the same type of robust presence in their countries' Embassies 
as the Indonesians and the Filipinos perhaps have. There is not 
the way to call and get help or a place to flee to. And we are 
very concerned as we look at that situation. If you look at 
many of the narratives in that part of Africa, I think you will 
see that reflected in something that we are going to have to 
look at more carefully, especially because it is cutting across 
a couple of our regional, the way that we separate up the 
world.
    The case that Chairman Royce mentioned today, I think is an 
example of that. The woman who was liberated yesterday, the 
charges were brought against her abusers in California was a 
Kenyan woman who had initially been trafficked to a Middle 
Eastern country and then brought to the United States. Luckily, 
when she left the Middle Eastern country where she was working 
for that family, she was given a pamphlet by our consular 
officer, the Wilberforce pamphlet, that comes directly out of 
the 2008 Trafficking Victims Protection Act that you sponsored. 
And I think because of that, that was one of the reasons why 
when she flagged down the bus and asked for help, as she ran 
away the other day, she actually said I think I might be one of 
these trafficking victims, according to press reports. 
Obviously, this is a case that is under development and we 
don't have any inside information. But we have been able to 
look at this briefly just this morning and it sounds as though 
one of the things that let her know that there was a 
possibility of freedom was that she got the Wilberforce 
pamphlet from our folks at the Embassy before she came to the 
U.S.
    So I think it shows that we think about the Africa 
Subcommittee. We think about the AF region or the NEA region or 
United States, we have all of our bureaucratic silos and we 
tend to think of those as all separate. I think this case, for 
us, shows how it really is actually interconnected and we have 
to be able to, whether it is as Congress or whether it is as 
the State Department, we have to figure out how to make those 
interconnectiveness to help these people because it reflects 
the interconnectiveness of their lives.
    Mr. Smith. As the TIP rollout occurred, and I want to 
applaud Secretary Kerry for his leadership as well, as well as 
your own, I headed over to the African Center for Strategic 
Studies, organized a forum with African security officials 
including several chiefs of staff and others. Not only did I 
give them a copy of the TIP Report, every one of them, and 
thank you for the carton that you gave me as I left the State 
Department, but over the course of about 1 hour, it became very 
clear how hungry they were for information on best practices 
for their own militaries to curb abuses by their soldiers.
    Similarly and parallel to that is the U.N. peacekeeper 
problem. The report indicates that in 2012 there were 59 
allegations of sexual exploitation and abuse lodged against 
U.N. peacekeeping personnel. Fifty percent of the allegations 
were against non-uniform personnel; 30 percent involved 
children under the age of 18; most occurred at the U.N. 
missions in the DR Congo, Cote d'Ivoire, Liberia, Haiti, and 
Sudan. According to the report, no information is available 
regarding disciplinary action such as suspension, dismissal, 
censure, demotion, and referral to employers. However, the U.N. 
itself claims to know the outcomes in 27 of those cases.
    So my question would be why after 7 years of addressing 
this issue in the DRC, for example, is this still a crisis? I 
would note parenthetically that I chaired three hearings. Jane 
Holl Lute, who was at Homeland Security was number two under 
Kofi Annan and they had a zero tolerance policy for the U.N. 
And she tried to do her level best to make sure that when it 
got to the field level this terrible complicity and actual 
abuse by U.N. peacekeepers was ended. But now we can't 
seemingly get information about this and I know that some of 
the investigators were moved out of Nigeria or I should say out 
of Gombe, and I actually met with them when they were there to 
places elsewhere which makes it harder for investigators to 
look into what peacekeepers might be doing.
    But it seems troubling in the extreme that we can't get 
basic information from the U.N. as to what becomes of a U.N. 
peacekeeper who rapes a 13-year-old in Gombe, who is then 
either sent back to his home country or what happens to him? 
And we don't know. I wonder if you might want to speak to that.
    Ambassador CdeBaca. Well, we share your frustration. The 
baseline on this is that notion of what we have been able to do 
whether it is with trying to have pre-deployment training for 
our own folks when they are going out or working through NATO 
structures and others, but we recognize that it is not always 
folks that are going out through the NATO structure. These are 
not U.S. service personnel who we are dealing with. And so 
while it has been helpful to point this out and to include it 
in the narratives, I think you are right that the road does 
lead back to U.N. headquarters. And that is something that we 
need to continue to press. It is something that just as we see 
the idea that there should be a zero tolerance policy across 
government procurement and other standards of conduct for say, 
for instance, diplomats and other government personnel, that 
the peacekeeper issue continues to have to be examined. And not 
simply examined in saying that this is a problem, but needs to 
be dealt with a little bit more head on.
    So I think at the end of the day, this is a shared 
frustration that we have. There is no reason why the very 
people who are supposed to bringing stability to an area should 
be engaged in this type of activity.
    Mr. Smith. Let me just ask you briefly on the issue of 
juicy bars in South Korea, the report states that despite 
increased regulations on the E6 entertainment visas, some 
foreign women and they are mostly Filipino women who enter the 
country on this visa are forced into prostitution. We know from 
the past that many of these women, like I said are Filipino 
women and they are forced to prostitute themselves in these 
bars. If they don't meet their quota, they don't get paid or 
they are forced to make it up with prostitution.
    We know for a fact, as a matter of fact, I held hearings on 
that as well, that the U.S. has tried to put these places off 
limits, yet there still is a problem and it seems to have made 
a comeback as is in the report. And I have heard independent 
analyses, too, some in Stars and Stripes and some of the other 
newspapers that have reported on this as well. It continues to 
be a problem.
    What can we do both in countries like the Philippines to 
try to ensure that these women are not lured in under false 
pretenses; and South Korea which obviously has done a fine job 
with its own legislation and its own policy and our own armed 
forces there to make sure that this issue ends?
    Ambassador CdeBaca. I do think that as you said the 
legislative framework in South Korea is certainly adequate for 
this. It has only been now a few months in which we have had 
the new antitrafficking law and I think that that is something 
that again, as with some of these other countries that have new 
laws, we are hoping that that will end up having a good effect 
on some of these situations.
    Frankly, the 2004 antitrafficking law was cumbersome. It 
really wasn't something that was as useful as a number of the 
modern antitrafficking laws around the world. While I haven't 
specifically had a chance to talk to our South Korean 
counterparts about is that one of the things that was getting 
in the way of prosecuting the juicy bars, I do know that that 
was getting in the way of prosecuting all of the forms of both 
sex trafficking and labor trafficking. And so it is something 
that we think will have kind of a lifts all boats, that type of 
effect on this area of the economy as well.
    I think we all look at the last 10 years as far as U.S. 
armed forces in Korea and trying to clean up some of the 
situations there as a success. It seems as though, however, our 
overt nature of the sex industry that we saw at the beginning 
of the last decade with easily exposed child prostitution and 
other things just by having folks with hidden cameras walking 
down the street, that those things have now kind of passed from 
the stage. And so we see that notion of the juicy bars, for 
instance, as being something that is more difficult to 
investigate and prosecute, because you have to really peel back 
what is going on. It is not the overt brothel type of situation 
that we saw in the past. But it is something that as we work 
with our Korean counterparts, we have seen a lot of intensive 
engagement on their part in the last year, very encouraging and 
I think that with this new law hopefully that will provide the 
tools that are necessary to go out and investigate these cases.
    Mr. Smith. Let me ask you with regards to the Roma, which 
most people in America are probably unfamiliar with, but they 
are the largest most discriminated group in all of Europe. 
There was a report done by the European Roma Rights Center, as 
a matter of fact, I offered a resolution at the OSE 
Parliamentary Assembly focusing on the Roma and the 
disproportionality of how many Roma women are trafficked into 
sex work. And I am wondering what our country is doing, while 
Roma are not a problem here in any large numbers, to encourage 
our European friends whether it be Romania or any other nations 
where they are trafficked to really take a serious effort to 
enfranchise the Roma, to work on education opportunities, job 
opportunities, to go after the systemic problems that lead to 
the trafficking and the statelessness that they so often suffer 
from?
    Ambassador CdeBaca. Indeed, I think that some of the 
broader issues that you raise with the Roma are things that our 
counterparts in the Bureau of Democracy, Human Rights, and 
Labor deal with more directly. But for our part in the 
Trafficking Office, the Roma are always on the agenda when we 
are dealing with the European countries. I think that we have 
seen as a result of that, especially the uptick in cases being 
done to protect the children that are in the child begging 
situation. Five years ago, you would see even after I started 
as Ambassador-at-Large, you would have those conversations with 
our European counterparts and the response was those are a 
bunch of little criminals or oh, well, that is just a child 
protection type of situation that they should be in school 
rather than out begging.
    Now we have seen, especially in the last 2 years, a 
recognition on the part of a number of European governments in 
the ways that matter by arresting the gang leaders and helping 
the children, that the children, the Roma children and the 
begging rings are not little criminals. They are actually 
victims. I think that that is something that anything that we 
can do to make that more of a compassionate rather than an 
immediate rejection on the part of Western European law 
enforcement toward Roma community, opens up that space in which 
they can treat the Roma with the respect and dignity that we 
are looking for on our broader human rights response to Roma 
issues.
    Mr. Smith. Ms. Bass?
    Ms. Bass. Just switching subjects a little bit, there is 
this case of a Nigerian woman who was in a European country who 
cooperated. She was a sex trafficking victim. She cooperated. 
She testified. The trafficking folks were put in prison. And 
then they decided to deport her and my question to you is what 
are we doing? I know we have those cases here occasionally. But 
what are we doing with other countries? It was Denmark. Are we 
working with other countries to get them to--and for this 
specific case which is one that is going on now. I don't know 
if there is a way for us to----
    Ambassador CdeBaca. I think one of the things that as we 
look at the situation, what you described, unfortunately, 
especially after the 1996 Immigration Reform Act, became the 
norm for a few years because we didn't have a way to keep 
trafficking victims in the United States. There was 1 year 
where I think I used, when I was a prosecutor, I used the full 
allotment of the visas that were created by Congress for people 
who flipped against their organized crime counterparts. I just 
went out and used them for trafficking victims because nobody 
told me not to. I think that what we see in the European 
context is that that ability to freelance a little bit, that we 
see on the part of innovative law enforcement folks here in the 
U.S. is not kind of within the cultural DNA of European law 
enforcement. It is very much you only do something if there is 
a law that authorizes you to do it and then you apply the other 
law. So there is kind of two systems of law, authorizing and 
otherwise.
    What we see in the European context, I think, though is 
that starting with the Italians in 1998 and then moving across 
Europe, that notion that trafficking victims should not be 
jailed and deported and it starts off with the idea of a 
reflection period, time to stabilize, time to be able to have 
social services. But on the back end, that notion that you 
should have the opportunity to stay in the country and work and 
be a productive member of the society that you had tried to go 
to but then were abused in. And I think that that is something 
that as we look at the European context, the European Directive 
which is their piece of legislation on trafficking that now 
applies to the entire European Union, it has in it that notion 
of non-deportation-based remedies for the trafficking victims.
    It is the one reservation, as I understand it, that the 
Danes when they signed the European Directive, they actually 
reserved that and so they chose to not be governed by that 
provision.
    We have seen the effect of Article 4 of the European 
Directive even just in the last few weeks when the High Court 
in London issued an order saying that the children who were 
being found in drug manufacturing factories in Britain could 
not be deported and cannot be jailed and deported because they 
were victims. That certainly is the type of response that we 
would like to see on the part of Denmark. It is the type of 
response that the rest of Europe seems to be moving toward 
organically and we hope that as colleagues, as folks who have a 
good human rights background on other issues and folks who want 
to be with the rest of us on kind of the cutting edge of victim 
care, that we can prevail upon our friends in Denmark to look 
at the situations like the one that you described perhaps from 
a different angle. We have got a new Ambassador going out this 
fall and I think it is something that hopefully we will be able 
to talk with him about what the priorities could be. Thank you, 
Ms. Bass.
    Mr. Smith. Just a few final questions and then we have 
another vote. On the Demmick case. I was just in Istanbul and 
did a side meeting with the lawyer with two of the exploited 
boys by the former Justice Minister Demmick from the 
Netherlands. The newest information is that he was there, 
according to the Turkish Government in 1996. He had denied that 
he was there and I am wondering, I know you had looked into it 
when you, too, were in Turkey. If you might be able to shed 
some light on that case.
    And if you could speak to Egypt. I have actually chaired 
three hearings and I am so frustrated that we have been unable 
to get any kind of traction with the administration. And I 
don't mean you, but with Ambassador Patterson or with the DRL 
Office on the forced abduction of Coptic Christian girls who 
are then forced into Islamic marriages and they can never go 
back because if they go back they are accused of apostasy and 
subjected to a horrible potential fate. And yet, Michele Clark, 
the former number two at the ODIHR in the OSCE worked on 
trafficking, investigated it herself and said that this is a 
very serious problem and it has gotten worse under the Morsi 
regime. Although he is not there now, it did get worse during 
his time in office. And I am wondering if you might shed some 
light on that terrible cruelty of again abducting children and 
then forcing them into marriages in Egypt.
    Ambassador CdeBaca. One of the things that we have seen 
with especially in the Egyptian context in the forced marriages 
and the thing I think that there has been more widespread 
reporting on is the other half of that, the abduction and sale 
of girls for what has been called the summer marriages. It is 
something that we have seen as an on-going problem and 
something that we are starting to be able to get our hands 
around.
    As far as the forced abduction of Coptic girls, whether 
that is forced abduction for the bringing in of marriages or 
for conversion, it is something that we continue to look at. I 
think you are correct, Mr. Smith, the notion of the changes in 
the government have made it harder to have our hands around.
    One last thing and for the record with Mr. Smith having 
left, it is good to hear that there is some new information on 
the Demmick situation coming out of the chairman's trip to 
Turkey and it is something that we will certainly be wanting to 
follow up with as far as making sure that we have the most 
current information about what your steps to investigate that 
case are so that we are able to inform ourselves in our 
discussions with the folks over in the Netherlands and in the 
Turkish Government. So it is something that we will follow up 
on with staff as well.
    Mr. Meadows [presiding]. I thank you and the chairman is 
stepping out for votes. This has been one of those days where 
nothing goes according to plan, so I appreciate your 
flexibility.
    If you could perhaps share a little bit about the 
encouragements or discouragements with regards to Russia and 
Uzbekistan, what are some of the things we need to look at or 
highlight and help with you to work on?
    Ambassador CdeBaca. You know, I think one of the things 
that we have seen this last year with Russia as part of--
obviously, we have got the six countries that we are facing the 
auto-downgrade provisions of the TVPA. So that was Iraq, 
Azerbaijan, Congo-Brazzaville, Russia, China, and Uzbekistan. I 
think it is illustrative when you are looking at the three 
countries that ended up going down to look at the countries 
that went up because it is kind of--by looking at the negative, 
we can see what could have happened.
    Even a country with as little capacity as Congo-Brazzaville 
was able to investigate and bring prosecutions for the first 
time. Iraq, being able to pass antitrafficking legislation, 
sending people into the women's prisons to sort folks out who 
had been arrested for prostitution offenses and identifying a 
handful of women to let out of prison saying these were 
actually victims rather than perpetrators. Azerbaijan doing the 
first cases against people who were holding men in forced labor 
in the construction industry. All of those countries then being 
able to look at them and bring them up to Tier II on the 
report.
    If you compare that then to Russia, Uzbekistan, and also 
China, especially I think in the Russian context you have got a 
country that is in a different trajectory, a situation where 
while there are some sex trafficking prosecutions that were 
being done and there are some very good folks both at the 
Health Ministry and even some of the police guys who are out 
there doing the cases, systemically we don't see the creation 
even under their own Action Plan, the Commonwealth of 
Independent States Action Plan. Most of the other signatories 
to the CIS Action Plan have gone out and brought together the 
kind of interagency working group that that plan calls for. The 
Russian Federation has not.
    Victim care, shelters closing for lack of government 
funding as opposed to opening. So it is just a different 
trajectory than we saw with some of the other countries that 
were on that Tier II Watch List auto-downgrade six.
    In Uzbekistan again, there are some things that were done, 
especially around sex trafficking cases which were laudable, 
but they are eclipsed by the notion of the cotton harvest and 
all of the problems with the state enforcing the labor of its 
citizens out into that annual exercise without bringing in the 
folks from the international community and others to really 
look at whether or not that practice was being brought to an 
end. So I think that we have seen in both Russia and Uzbekistan 
the need for continued support from not just having the State 
Department out there talking about this, but we see the 
Europeans, we see even the business community talking to 
Uzbekistan. This is not simply the TIP Office going to 
Uzbekistan, it is properly our partners around the world, our 
partners in the interagency and you here in Congress as well. 
So I think it is that kind of the big voice that all of us 
speaking together can take out into the world and I think it is 
starting to have an effect in some of these countries.
    Mr. Meadows. Do you see some of this--is there any 
correlation with regards to demographics in terms of a younger 
population? Is that something that will exacerbate the problem? 
Are you looking at that correlation or not?
    Ambassador CdeBaca. I do think that we have some concerns 
and it is concerns that when we were working with the Russians 
on the U.S.-Russia Presidential Bilateral Commission under 
President Medvedev and President Obama, it was something that 
very much in the work of my subcommittee which was looking at 
migration and issues as well as human trafficking that notion 
of a population in Russia that is kind of emptying out, the 
notion of a country that is so far below replacement rate, 
where are the factory workers coming from? Increasingly, they 
are coming from Vietnam and it was interesting to be in a 
garment factory, east of Moscow where there was actually a 
mixed group and to see Vietnamese workers who had learned 
Russian and were working side by side with their Russian 
counterparts. That would be, I think, a model of how you have a 
guest worker situation as opposed to all Vietnamese factories 
with guards and exploitation and then Russians who would be 
looking for a job in their own hometown and not being able to 
get a job down at the garment factory.
    So we saw one of the good factories when we were there as 
part of the Bilateral Commission. But you could tell from 
talking to our Russian counterparts and others that the 
demographic shifts in Russia, the weakening of the next 
generation is of great concern.
    Mr. Meadows. So you can see the problem potentially getting 
worse from a human trafficking standpoint? Because I know in 
this room we have heard testimony with Vietnam in particular in 
terms of what we have seen with the trafficking of girls and 
men, to Russia with a really systemic problem from just the 
magnitude of what it is. So do you see that continuing to get 
worse without a concentrated effort to curtail it?
    Ambassador CdeBaca. I think one of the things that we have 
seen in the Russian context is that notion of an economy that 
still wants to grow very much and especially in the building 
trades. Both from Vietnam and Central Asia, the notion of just 
how powerful of a magnet the Russian economy is for foreign 
guest workers. So it is a Vietnamese problem, but it is also a 
Kyrgyz problem, an Uzbek problem, a Tajik problem. The 
estimates that were reflected in the report this year from some 
of the academics in Russia are that there are upward of 1 
million people being held in forced labor in Russia. This is a 
country of about 140 million people. This is not a country of 
350 million or this is not an India or China where you are 
talking in billions.
    Mr. Meadows. Right.
    Ambassador CdeBaca. So the notion that that high of a 
percentage already within their workforce is in these 
circumstances indicative of forced labor, I think is a really 
warning shot for everyone.
    Mr. Meadows. And you mentioned earlier about ID and I know 
that we have ID'd, I guess, 40,000 victims of human 
trafficking, and yet the problem is probably 27 million, 
according to your testimony, 27 million people involved in it. 
How do we do a better job of identifying those victims? Because 
when we do identify those and we can apply pressures, either 
diplomatically or through one-on-one exchange, how do we do a 
better job of identifying that? Is that a resource problem? Is 
that a strategic problem? You have gone, as you mentioned, 60 
people within your organization that I would assume have a 
heart for these victims. And I recognize that. And what I am 
saying is I want to give you the tools to make sure that we 
just don't have these hearings that continue to go on. And we 
turn the other way. If Members of the Congress have to be 
heavy, we are willing to do that, I think because of this. We 
understand that you are in a tough situation, but I want to 
take the compassionate heart of your 60 employees and say how 
do we give you the tools to identify the victims and then make 
sure that we take the appropriate actions, put some teeth to 
the TIP Report?
    Ambassador CdeBaca. I think that in many ways, Mr. Meadows, 
the situation often comes down to not just the structures, not 
just the resources, etcetera, but it comes down to political 
will, that notion of if you have got the head of a ministry or 
the head of a government who really wants to see numbers of 
victims who have been helped, then typically the bureaucracy 
will respond to that in a positive way. And if they don't, it 
is not going to happen. It is something that about 1\1/2\ years 
ago when we were in the process of the changing relationship 
with Burma, about 3 weeks or so after Secretary Clinton was 
there, I was able to go in to Rangoon and I met with Aung San 
Suu Kyi in the house where she had been held for so many years. 
And she had a copy of the training manual for the Burmese 
Police and they have a pretty good little antitrafficking unit 
even before we opened up the relationship.
    And she asked the most important and most inconvenient 
question that anybody could ask about that training manual. She 
said of the 84 people that went to that training last month 
were any of them now being assigned to work on human 
trafficking cases?
    Mr. Meadows. Wow.
    Ambassador CdeBaca. And I think that to me really showed me 
kind of what is that next question. We don't always ask. We 
look at whether it is in State or USAID, we will often be 
muttering how many people were trained? How much training 
materials did we get out? Did we get a new, good curriculum? 
How many laws have been passed around the world? And those are 
all very important, but then that question that Aung San Suu 
Kyi asked is the one that can undo all of those other data.
    And when we come to you, whether it is in a report like 
this or telling you how we are spending the money that you guys 
are able to appropriate to us, we are often not able to answer 
that last question. And to me, that is one of the most 
important things so that the work of not just my 60 people, but 
all of the people around the world who want to work on human 
trafficking is meaningful. I think that that is probably, if I 
had to say one thing, that is the key. It is not simply 
providing the training, providing the technical assistance, all 
of the things that we can and do do, but then providing the 
expectation. Now that we have trained you, are you going to be 
able to go out and do it? Maybe you call that mentoring, maybe 
you call that follow up, monitoring and evaluation. There are a 
lot of things you can call it, but at the end of the day we are 
looking at what are the results that we can tie back to the 
training that we are able to provide. I think that when we are 
able to answer that question better, we are not going to be 
stuck at 47,000 victims.
    Mr. Meadows. Right. Let me ask one other question and I 
will yield back to the chairman as he has come back. When we 
look at sanctions, when we look at enforcement, what I have 
found because we have a unique position of bipartisan support 
with a strong leader like Chairman Smith who is willing to 
articulate it, even in times when it creates a very 
uncomfortable situation with people from either Ambassadors or 
people in leadership of other countries, but we have a 
bipartisan support that will not only talk about sanctions, but 
will go to action. And without naming names, the chairman had 
mentioned about a sanction on a particular country and about 
putting forth some legislation to support that and resolutions 
to support it.
    It got the attention, as it should because it was not a 
bluff. It should have gotten the attention, but it got the 
attention of that particular nation. And because of that we 
have got a meeting coming up that will start to address some of 
the human rights violations in this particular country.
    Can we do that and working with the State Department in a 
more effective where it is again, not the words of somebody 
with a mic on a hearing, but it is really the actions that are 
backed up by that? Do you think that would be helpful?
    Ambassador CdeBaca. I think that type of engagement is 
always helpful. I think the details of any particular--whether 
it is a sanctions package or whether it is a particular 
diplomatic approach, we have to look at the context in a 
particular government, but I think that that notion of lashing 
up as much as we can and more than we have been doing, I 
realized the other day when I was talking to my staff that we 
have been so busy on a lot of these things that we haven't 
necessarily been suggesting or supporting congressional travel 
and so a lot of members have not been to the shelter. They 
haven't met with the antitrafficking police unit out there. And 
it is something that we know that we need to step up so that 
you guys can see that when you are on the road, whether it is 
part of a previously scheduled trip or something specific to 
this. I use that only as an example of that notion that we need 
to perhaps look at how we are doing this and how that lashes up 
with the work of the committee and the work of the individual 
members so that we can make sure, especially in a time of 
shrinking budgets and challenges around the resources that we 
have, that we are making up for those things by having not just 
the 60 people in my office, but 535 others and their staff who 
can go out and help get this message out around the world.
    Mr. Meadows. Well, if you would take the message back to 
your staff and to all of those that are there that we 
appreciate the effort that they are putting forth on behalf of 
this unbelievable just blight on our world. And with that that 
we appreciate it. It is very easy when you look at 27 million 
people to start looking at them as numbers that are too big to 
handle. But every little girl that is trafficked is someone. 
They have a dad. They have a mom that cares individually about 
that person. We have heard just unbelievable testimony on this 
who are parents who have talked about their children where 
people have been sold into slavery as wives twice and it just 
breaks my heart. And so there is a tendency to look at it as 
big numbers.
    I want to say that every single one of those is an 
individual case and I want to encourage those to not look at 
budget cutbacks and anything else as an indictment on their 
work. It is a sign of the times, but we are willing to work 
with you in a real way to make a real difference.
    I yield back to the chairman. I thank him for his work.
    Mr. Smith [presiding]. Thank you very much, Mr. Meadows. 
Thank you, Ambassador CdeBaca, for your testimony, your 
leadership. Is there anything you would like to say before we 
close?
    Ambassador CdeBaca. One last thing I would like to say, Mr. 
Smith, if you look at this year's report, there is a lot of 
ways that people read the report. The first day a lot of people 
from the press they read it for ups and downs and what the 
horse race aspect of it are. A lot of folks, they will read it 
just as what does it say about the country that I am from or 
the country that I care about, etcetera. The reason that victim 
identification as a theme of the report this year, I think had 
some resonance. If you look at the introduction of the report, 
it really sets out that notion of kind of what is victim 
identification? What is best practices, etcetera. And I think 
it all flows back to this point that Mr. Meadows just made, 
that notion that every one of these is a person. We are doing 
this because people are being enslaved.
    We all have to work on big, important issues that are more 
kind of policy issues where we are dealing with the ebb and 
flow of international commerce or geopolitics or things like 
that, but at its heart human trafficking is evil because 
individual people are being victimized. And that is something 
that I think that this committee and you through your 
leadership, but I think everyone in the U.S. Government has 
come to realize. And so it should be no surprise when folks 
look at the last page of the report, the note from my staff 
that what we focus on is that notion of the victim. There is 
many ways to read this report, but we hope that people take 
away are not the tragedies that are in it, but on that last 
page the picture of those nine or ten victims who have now 
become survivors, who have become advocates. It shouldn't be 
their tears that we think about or that we say that defines 
them, it should be their smiles and their determination because 
they know that they have a voice and that this is a room where 
it can be heard.
    Mr. Smith. On that, thank you very, very much. The hearing 
is adjourned.
    [Whereupon, at 1:11 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



RAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
